T

i I.

K

Supreme Court, U.S.
FILED

4

JUL 2 8 2021
OFFICE OF THE CLERK

NO.

IN THE
SUPREME COURT OF THE UNITED STATED

On Petition For A Writ of Certiorari to UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
(

Patrina Harrison
650 Eddy Street Unit 207
San Francisco, California 94109
(415) 567-8182
hanisonempa@gmail.com

7

/

QUESTION(S) PRESENTED

Pursuant to 42 U.S.C. Section 1981 can Defendant Wells Fargo Bank and its
I.
Branch manage deny Plaintiff “access to servicing her federal home because she is
Negro?

II.
Pursuant to 42 U.S.C. Section 1981, can Defendant Wells Fargo Bank and its
Branch Manage deny Plaintiff the “right to make and enforce a contract with Wells
Fargo Ban, as a result of racial discrimination?

III.
Pursuant to 42 U.S.C. Section 1983 and Equal Protection Clause, can
Defendant Wells Fargo Bank and its Branch Manager “humiliate Plaintiff, by
denying her service and not providing equal access to the bank’s facility and its
promotional product because Plaintiff if Negro?

IV.
Pursuant to Section 601 of the Civil Rights Act of 1964, can Defendant Wells
Fargo Bank and its Branch Manager refuse Plaintiff the right to service, while
serving under the color or law, in the defendants’ capacity serving as an agent of the
federal government, processing federal home loan application, inflict emotional
distress injuries onto Plaintiff Harrison because she is Negro?

V.
Whether the Ninth Circuit Court of Appeals decide on the merits of a case that
was not asked by the Appellant to decide on, and render a final ruling, while ignoring
the merits of the case asked to preside a ruling on?

VI.
Pursuant to 42 U.S.C. Section 1982, can Defendants Wells Fargo Bank and its
Branch manager exclude Plaintiff from competing for the right to purchase, lease,
sell, hold, and convey real and personal property because Plaintiff is a member of a
racial minority ?

VII. Whether Defendant Wells Fargo Bank can determine that Plaintiff is not
qualified to receive a home loan based on refusing Plaintiff‘s documentary evidence
to support her eligibility otherwise?

8

VIII. Whether Summary can be granted on merits not asked to be redressed in its
appeal?

IX.
Pursuant to 42 U.S.C. Section 1981 can Defendant Wells Fargo Bank and its
Branch manage deny Plaintiff the opportunity to contract for the service of Plaintiffs
federal home loan application, by telling her to leave The bank and that she is black?

X.
Pursuant to 42 Section 1981 can Defendant Wells Fago Bank and its Branch
manager refuse to let Plaintiff see a banker because Plaintiff is Negro?

?

XI.
Pursuant to Equal Credit Opportunity Act & Fair Housing Act, can Defendant
Wells Fargo Bank and its Branch manager discriminate against Plaintiff with respect
to any aspect of cred transaction on the basis of Plaintiffs race, or color?

XII. Pursuant to the Federal Housing Act (“FHA”), can Defendant Wells Fargo
Bank and its Branch manager discriminate against Plaintiff by making unavailable
real-estate transactions, or in the terms or conditions of such a transaction because
of Plaintiffs race and color?

XIII. Pursuant to 42 U.S.C. Section 3605(a) are Plaintiffs rights protected under the
FHA?

LIST OF PARTIES
;

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:

!

9

I

I

TABLE OF AUTHORITIES CITED
PAGE No.

CASES:
1. Schlegel v. Wells Fargo Bank, NA, 720 F.3d 1204,1210 {9th Cir. 2013)

13

2. Hafiz v. Greenpoint Mortg. Funding, Inc., 652 F.Supp. 2d 1039,1045 (N.D. Cal. 2009)

8,9

3. Domino's Pizza, Inc. v. McDonald, 546 U.S. 470, 475 (2006)

8,9

4. Nat'l Ass'n Of African Am. -Owned Media v. Charter Commo'ns, Inc., 915 F.3d

14,

617, 622 (9th Cir. 2019)
5. Lindsey v. SLT Los Angeles, LLC, 447 F.3d 1138,1144 (9th Cir. 2006)

14

6. Nuerre v. Whitehead, 580 F.3d 1087,1092 (9th Cir. 2009)

13

7. McDonald v. Santa fe Trial Transp. Co 427, U.S. 272 (1976)

8,9

8. Patterson v. McLean Credit Union, 491 U.S. 164 (1989)

8,9

9. Jones v. Alfred H. Mayer CO, 392 U.S. 409 (1968)

13

10. Gilligan v. Jamco Dev. Corp., 108 F.3d 246, 249 (9th Cir. 1997)

14

11. Harris v. Itzhaki, 183 F.3d 1043,1051 (9th Cir. 1999)

14

12. Douglas Corp. v. Green, 411 U.S. 792, 802 -03 (1973)

13

13. Phiffer v. Proud Parrot Motor Hotel, Inc., 648 F.2d 548, 551 (9th Cir. 1980)

14

14. Anderson v. Liberty, 477 U.S. 242 (1986)

13

15. Easter v. Am. W. Fin, 381 F.3d 948 (9th Cir. 2004)

8

16. Celotex Corp. v. Catrett, 477 U.S. 317,106 S. Ct.

9

STATUTES AND RULES
1) 42 U.S.C. Section 1981

8

2) 42 U.S.C. Section 1982

13

3) 42 U.S.C. Section 1983

14

4) (ECOA), 15 U.S.C. SECTION 1691

13

5) Fair Housing Act 15 U.S.C. Section 1691 (a)

9

6) Dodd - Frank Wall Street Reform/Consumer Protection Act
7) 24 CFR Section 100.1 - 100.500 (HUD’s Regulations)

8

8) 42 U.S.C. Section 2000d

13

10

1.

RELATED CASES
17. Schlegel v. Wells Fargo Bank, NA, 720 F.3d 1204,1210 (9th Cir. 2013)

14

18. Hafiz v. Greenpoint Mortg. Funding, Inc., 652 F.Supp. 2d 1039,1045 (N.D. Cal. 2009)

14

19. Domino's Pizza, Inc. v. McDonald, 546 U.S. 470, 475 (2006)

14

20. Nat'l Ass'n Of African Am. -Owned Media v. Charter Commo'ns, Inc., 915 F.3d

8

617, 622 (9th Cir. 2019)
21. Lindsey v. SLT Los Angeles, LLC, 447 F.3d 1138,1144 (9th Cir. 2006)

9

22. Nuerre v. Whitehead, 580 F.3d 1087,1092 (9th Cir. 2009)

14

23. McDonald v. Santa fe Trial Transp. Co 427, U.S. 272 (1976)

13

24. Patterson v. McLean Credit Union, 491 U.S. 164 (1989)

8

25. Jones v. Alfred H. Mayer CO, 392 U.S. 409 (1968)

9

26. Gilligan v. Jamco Dev. Corp., 108 F.3d 246, 249 (9th Cir. 1997)

8

27. Harris v. Itzhaki, 183 F.3d 1043,1051 (9th Cir. 1999)

9

28. Douglas Corp. v. Green, 411 U.S. 792, 802 -03 (1973)

14

29. Phiffer v. Proud Parrot Motor Hotel, Inc., 648 F.2d 548, 551 (9th Cir. 1980)

13

30. Anderson v. Liberty, 477 U.S. 242 (1986)

13

31. Easter v. Am. W. Fin, 381 F.3d 948 (9th Cir. 2004)

14

32. Celotex Corp. v. Catrett, 477 U.S. 317,106 S. Ct.

8

TABLE OF CONTENTS
OPINIONS BELOW

,11

JURISDICTION

,12

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

12

STATEMENT OF THE CASE

13
13

REASONS FOR GRANTING THE WRIT
CONCLUSION

14

11

)

INDEX TO APPENDICES

APPENDIX A

Opinion of the U.S. Court of Appeals

APPENDIX B

Opinion of the U.S. District Court

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays
that a Writ Of Certiorari is issued to review the judgment below.
OPINIONS BELOW
irf For cases from federal courts:
The opinion of the United States Court of Appeals For the Ninth Circuit
appears at Appendix__ A
to the petition and is
[ ] reported at
[ ] has been designated for publication but is not yet reported
^/is unpublished.
[ ] For cases from federal courts:
The opinion of the United States District Court For the Northern District of
California appears at Appendix _B
to the petition and is
[ ] reported at
[ ] has been designated for publication but is not yet reported
[/is unpublished.
JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals for the Ninth Circuit
decided my case was On JULY 22, 2021_______________
[/No petition for rehearing was timely filed in my case.
12

1

I

[ ] A timely petition for rehearing was denied by the United States Court of Appeals
on the following date:, and a copy of the order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including.

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves 42 U.S.C. Section 1981 which provides:
All persons within the jurisdiction of the United States Shall have the same
right in every state and territory to make and enforce contracts, to sue, be
parties, give evidence, and to the full and equal benefit.
(1) To establish a prima facie case for a Section 1981 claim in a non­
employment context, plaintiff must show that: “(1) [she] is a member of a
protected class, (2) [she] attempted to contract for certain services, (3) [she]
denied the right to contract for those services,” and (4) “such services remained
available to similarly-situated individuals who were not members of the
plaintiffs protected class.”

STATEMENT OF THE CASE
Plaintiff challenged Defendants race based discrimination in access to
servicing her home loan application, and providing equal access to the bank’
facility and its promotional products. Thereby, inflicting emotional distress
injuries onto Plaintiff, and violating Plaintiffs “right to make and enforce a
contract with Wells Fargo Bank resulting on the basis of racial discrimination.
Plaintiff maintains that Respondents refused her access to servicing her
federal home application, whereas humiliating Plaintiff, by denying her service
13

and not providing equal access to the bank facility and its promotional
products.
Petitioner believes that the issues raised are sufficient for at least 4 Justices
to vote to grant Certiorari.
REASONS FOR GRANTING THE PETITION

(A)

CONFLICT WITH DECISIONS OF OTHER COURTS

The Holdings of the Courts below that the Ms. Harrison was unqualified for
the mortgage she sought, thus her § 1982, ECOA, and FHA claims fail as a
matter of law. And Ms. Harrison does not provide sufficient evidence that Wells
Fargo actually denied her service, thus her § 1981 claims also fail. The motion
for summary judgment is GRANTED.
In Domino’s Pizza, Inc. v. McDonald, 546 U.S. 470, 475 (2006). While Section
1981 applies to both public and “purely private acts of racial discrimination, “
it reaches only purposeful discrimination.” Natl Ass’n of African Am. -Owned
Media v. Charter Commc’ns, Inc., 915 F.3d 617, 622 (9th Cir. 2019).
(B)

IMPORTANCE OF THE QUESTONS PRESENTED
(I)

This court should visit this issue due to the fact that it has the

potential to affect Thousands of Negros who are seeking to service their home
loan application, have equal access to the bank facility, and promotional at
Wells Fargo Banks.

14

5 * 7 K

(II)

Defendants require that Negros do not have equal access to the

bank facility, and promotional items. Defendants also require that Negro
i

Bank Customers are not allowed to see a banker to submit additional source
documents to support a favorable decision on their home loan application.

CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted

[L

Date July 28, 2021

No.
i

!

IN THE
SUPREME COURT OF THE UNITED STATES

PATRINA HARRISON - PETITIONER
Vs.
* A

\

WELLS FARGO BANK; NICHOLAS PACUMIO, BRANCH MANAGER •
RESPONDENTS
. ■ >

\
I
r

15

v -i

PROOF OF SERVICE
do

July 28,

swear

or

declare

that

on

this

date,

.2021, as required by Supreme Court Rule 29 I have served the

enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows: Wells Fargo Bank, Nicholas Pacumio, Branch
Manager,
Attorney For Defendants: Evelina Manukvan. One Embarcadero Center. Suite 2600.
Ran Franriarn nalifnrnia Q4111

Executed on Wednesday, 28th Day of JULY . 2021

received
AUG - 3 2021
16

